<html>
<title> - ARE WE READY? A STATUS REPORT ON EMERGENCY PREPAREDNESS FOR THE 2009 HURRICANE SEASON</title>
<body><pre>[Senate Hearing 111-152]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-152

                    ARE WE READY? A STATUS REPORT ON
                     EMERGENCY PREPAREDNESS FOR THE
                         2009 HURRICANE SEASON

=======================================================================

                                HEARING

                               before the

                AD HOC SUBCOMMITTEE ON DISASTER RECOVERY

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 4, 2009

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs









                  U.S. GOVERNMENT PRINTING OFFICE
51-783 PDF                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           JOHN McCAIN, Arizona
MARK L. PRYOR, Arkansas              GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          JOHN ENSIGN, Nevada
CLAIRE McCASKILL, Missouri           LINDSEY GRAHAM, South Carolina
JON TESTER, Montana
ROLAND W. BURRIS, Illinois
MICHAEL F. BENNET, Colorado

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk


                AD HOC SUBCOMMITTEE ON DISASTER RECOVERY

                 MARY L. LANDRIEU, Louisiana, Chairman
CLAIRE McCASKILL, Missouri           LINDSEY GRAHAM, South Carolina
ROLAND W. BURRIS, Illinois
                      Ben Billings, Staff Director
                  Andy Olson, Minority Staff Director
                       Kelsey Stroud, Chief Clerk












                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Landrieu.............................................     1
    Senator Burris...............................................     8
    Senator Graham...............................................    15

                               WITNESSES
                         Thursday, June 4, 2009

Hon. W. Craig Fugate, Administrator, Federal Emergency Management 
  Agency, U.S. Department of Homeland Security...................     5
Major General Frank Grass, Director of Operations, U.S. Northern 
  Command........................................................     7
George Foresman, Advisory Board Co-Chairman of the 
  ReadyCommunities Partnership, Corporate Crisis Response 
  Officers Association, Former Undersecretary, Preparedness and 
  Emergency Response, U.S. Department of Homeland Security.......    22
Armond Mascelli, Vice President, Disaster Operations, American 
  Red Cross......................................................    24
Janet Durden, President, United Way of Northeast Louisiana.......    26

                     Alphabetical List of Witnesses

Durden, Janet:
    Testimony....................................................    26
    Prepared statement with attachments..........................    58
Foresman, George:
    Testimony....................................................    22
    Prepared statement...........................................    50
Fugate, Hon. W. Craig:
    Testimony....................................................     5
    Prepared statement...........................................    35
Grass, Major General Frank:
    Testimony....................................................     7
    Prepared statement...........................................    48
Mascelli, Armond:
    Testimony....................................................    24
    Prepared statement...........................................    52

                                APPENDIX

Ronald C. Osborne, Director, State of South Carolina, Office of 
  the Adjutant General, Emergency Management Division, prepared 
  statement submitted by Senator Graham..........................    93
Charts submitted for the Record by Senator Landrieu..............    97
Questions and responses submitted for the Record from:
    Mr. Fugate...................................................   101
    Major General Grass..........................................   107
    Mr. Mascelli with attachments................................   110
    Mr. Mascelli answer to question asked at hearing.............   114
Additional statements submitted for the record by:
    Mr. Kenny Harrell............................................   115
    Ms. Lucinda Nord.............................................   116
    Ms. Francis G. Furrie........................................   117
    Ms. Tracy Hays...............................................   118
    Ms. Lori Linstead............................................   119
    Mr. Stephen G. Almon.........................................   120

 
 ARE WE READY? A STATUS REPORT ON EMERGENCY PREPAREDNESS FOR THE 2009 
                            HURRICANE SEASON

                              ----------                              


                         THURSDAY, JUNE 4, 2009

                                   U.S. Senate,    
              Ad Hoc Subcommittee on Disaster Recovery,    
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:03 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Mary L. 
Landrieu, Chairman of the Subcommittee, presiding.
    Present: Senators Landrieu, Burris, and Graham.

             OPENING STATEMENT OF SENATOR LANDRIEU

    Senator Landrieu. Good afternoon. Our Subcommittee on 
Disaster Recovery will come to order. And let me welcome 
everyone that has joined us today for what I think is a very 
important hearing and what is one of a series of hearings that 
will continue to happen as we strive to get our Nation's 
response capabilities in the very best possible shape that we 
can for hurricanes and all disasters.
    That is the subject of this hearing today, to see where we 
are, and we have the opportunity to have on our first panel the 
new FEMA administrator who will be testifying today for the 
first time since his confirmation.
    Welcome, Mr. Fugate. And Major General Grass from Missouri, 
who will be testifying today as well.
    Let me say that this hearing is focused on hurricane 
response because we started hurricane season this week. But we 
will be examining issues that affect not just the hurricane 
region, but all regions of the country in this hearing today, 
and we will be focusing on plans and processes that actually 
have applicability across the board for many different types of 
threats, be it hurricanes, earthquakes, etc.
    The Ranking Member and I both represent States that have 
seen large portions of our States, major cities, and very 
important rural areas devastated by recent hurricanes. 2004, 
2005, and 2008 were particularly hard years for cities and 
communities throughout the Gulf Coast, from Florida to Texas, 
but the last century has been difficult for many States.
    And I would like to put the first chart up.\1\
---------------------------------------------------------------------------
    \1\ The chart referred to appears in the Appendix on page 97.
---------------------------------------------------------------------------
    These are the tracker of all the hurricanes that have hit 
this particular region of the country, which is the Hurricane 
Belt, from 1955 to 2005. The blue line is Hurricane Katrina, 
which was the greatest among all the storms depicted there by a 
significant amount, in terms of size, of damage. And then, 
Hurricane Rita, which ranks second amongst the storms in terms 
of damage. And I would like to show you the next graph, which 
is even more startling, these are the storms since 1851 to the 
present.\2\
---------------------------------------------------------------------------
    \2\ The chart referred to appears in the Appendix on page 98.
---------------------------------------------------------------------------
    So when we, in the Gulf Coast, talk about the threat, it is 
real, it is frightening, and it is important for this 
Subcommittee, and all committees of this Congress, to continue 
to focus, as best we can, on the sure threat of hurricanes, 
that are getting more and more predictable, we know, and can be 
better focused on where they are going to hit and when they are 
hitting, unlike earthquakes, although our science is getting 
much better on earthquakes and fires as well. But we have 
gotten pretty good at predicting where these storms will hit. 
There is very little we can do, I think, immediately to stop 
them, but we most certainly can prepare our people better for 
the threat that they are facing.
    It is important for us to understand our capacity to deal 
with these real and ongoing, and in some people's minds, ever-
strengthening threats, and that is what this Subcommittee will 
focus on and has focused on since the wake-up call of Hurricane 
Katrina, which will be 4 years ago on August 29.
    We want to make sure that we continue the work necessary to 
make more scientifically-based predictions and warnings for 
people, so they can move out of the way of these powerful 
storms. We want to make sure that their evacuation routes are 
clear and secure and that the rules and regulations involving 
evacuation are clear to the millions of people that have to 
follow them, as well as to those who are organizing the 
evacuations.
    What will people be reimbursed for, what they will not be 
reimbursed for is of particular interest to me. Immediately 
stabilizing availablity of water, food, and medicine to all the 
people that flee from storms like this is important, and we 
have not quite gotten that right yet. Where do people that flee 
these storms, where do they live in the event that they cannot 
go back to the house, or the shelter, or the apartment, or the 
place, nursing home, hospitals that they evacuated from? Where 
do we shelter them and who pays for that and for how long?
    Then, what do we do to help these communities recover when 
they are big cities, large metropolitan areas with millions of 
people? How do we help the small rural communities that do not 
get any attention from anybody once the wind and the waves are 
gone? How do we help them to recover? I would suggest that we 
have a lot of work to do.
    I would like to say a few words about the devastating 
hurricanes that struck Texas and Louisiana last year because 
the response to those demonstrated progress that has been made, 
as well as the requirement for significant improvement.
    The evacuations for Hurricanes Gustav and Ike were the 
largest in U.S. history. Louisiana moved 2 million people out 
of harm's way, including the elderly, the disabled, and those 
without transport.
    Texas kept Houston residents at home so roads could be 
cleared for people on the Coast to flee from Hurricane Ike 
without getting stuck in traffic as they did when Hurricane 
Rita was approaching. Communication and coordination between 
different levels of government was better. FEMA declared pre-
landfall disasters in both States, surged resources into the 
areas before impact, and the Federal levees held.
    However, insufficient quantities of generators forced 
hospitals in Baton Rouge to evacuate patients. Insufficient 
supply of generators caused gas stations to shut down, which 
almost caused a panic in a major metropolitan area, as for 
weeks people could not access any gasoline. When people cannot 
access gasoline, they cannot get to work. It shuts the economy 
down. People start getting laid off of work. Even within a week 
or two of a storm that could happen.
    We cannot afford to lose more jobs right now, I might 
remind the people testifying today. Local governments waited 
days for commodities like ice and water and blue tarps. The 
State of Louisiana bus contractor failed. Evacuees were forced 
to take school buses without air conditioning or bathrooms, 
which does not seem like much, except if it is 100 degrees out 
and your bus ride is 10 hours or longer, it becomes a real 
issue for people who are sick or elderly, or for small children 
to sit still on a bus is very hard, particularly if they have 
to do so without bathrooms.
    Evacuees from Texas and Louisiana arrived in Shreveport and 
Bastrop, just two, to give examples of. And I have walked 
through these shelters myself that were wholly inadequate. 
There were no cots, there were no blankets, there were 
inadequate showers, and people were forced to sleep on floors 
because the cots and towels did not arrive until 17 days after 
people arrived. So it was a very interesting couple of weeks 
for the mayors of those towns, which did their very level best 
to make a bad situation better.
    Local levees in South Louisiana failed again. They failed 
in Hurricane Katrina, they failed in Hurricane Rita, they 
failed in Hurricane Gustav and Hurricane Ike. And as 
Administrator Fugate knows, because he is from Florida, the 
people of South Florida are very concerned about their water 
management issues and whether their dikes, levees, and water 
will hold, and that is the subject of another hearing.
    Recovery has continued to be a frustrating and cumbersome 
process for individuals and local governments despite many 
improvements, which I will mention in a moment. I believe we 
are still relying, Mr. Fugate, too much on trailers in order to 
jump start recoveries, and we are going to be pressing hard on 
new housing and shelter options from this Subcommittee.
    I will continue to say that providing these communities 
with $5 million in community disaster loan assistance is 
probably not what Charleston, Savannah, Miami, New Orleans, 
Atlanta, Baton Rouge, or any number of communities--they cannot 
do much with $5 million, and that is all the law allows them to 
borrow.
    So Administrator Fugate from FEMA will discuss the 2008 
response and the agency's work on alert and warning systems, 
evacuation plans, and, from his perspective--if we are better 
situated as the 2009 season opens.
    Major General Grass from U.S. Northern Command will outline 
the Department of Defense's support mission for hurricane 
response, including aerial storm surveillance, air MedEvac, 
search and rescue, communications support, logistics support, 
recent hurricane response exercises, and NORTHCOM's 
coordination with the State National Guard. It is a lot, but we 
are going to try to get that in. And I will mention that we are 
very proud to have the general with us. And he is from the 
Missouri National Guard, which is of particular interest to 
Senator McCaskill.
    Then on our next panel, we will have George Foresman, a 
former DHS official who is here today to talk about the private 
sector's role because this Subcommittee Chairman, and Ranking 
Member, and Members recognized, it is not just the Federal 
Government. It is State and local government. It is 
individuals. It is the private sector and the nonprofit sector. 
We want to give them a voice.
    We also are happy to hear from Armond Mascelli, the 
Director of Operations for the American Red Cross. They have 
gone through a major transformation since Hurricane Katrina. We 
are very interested in hearing about the fact that they have 
increased their volunteer base from 23,000 to 90,000. And we 
think it is not only a bigger but a better Red Cross, and we 
are excited about hearing, because I think Americans look to 
the Red Cross to give them strength and comfort at times of 
disaster, and that, of course, has been a key role of the Red 
Cross for many years.
    Finally, Janet Durden joins us on behalf of a community in 
Northeast Louisiana, of which I am very proud, my husband's 
hometown. And in Hurricane Katrina, they did a phenomenal job 
through their 2-1-1 system there. As the offices lost current 
and became overwhelmed in south Louisiana, north Louisiana 
picked up, and I am sure the same thing happened in Texas, 
Alabama, Mississippi, and Florida. As these storms come in, the 
northern part of the State provides a great amount of help. And 
we want to hear about the increased activity of the 2-1-1 
operation, which is sort of the go-to-operation when people 
need information during an emergency. They do not call 9-1-1, 
they call 2-1-1, and we want to help Americans understand that.
    So with that opening statement, I would like to ask Mr. 
Fugate to begin.
    Let me ask Senator Burris--I know you are just coming in, 
and welcome.
    Do you want to make any brief opening statement or should 
we go right to the panel?
    Senator Burris. Go right to the panel, and I will catch up.
    Senator Landrieu. Thank you, Senator.
    We are happy to have Craig Fugate with us, who is the new 
Administrator of FEMA, a man whom I supported wholeheartedly, 
as did many other members of the Senate. You are extremely 
experienced. We thank you for the work that you have already 
done, but we are looking forward to hearing from you, 
Administrator Fugate, because, you know as I know, that while 
we have made some progress, there is a tremendous amount of 
work that has to be done, and we are looking to you for 
leadership and guidance.
    And may I say before you start, how thankful I am to Nancy 
Ward, who came in before the election of President Obama and 
the appointment of the Secretary of Homeland Security, Janet 
Napolitano, and stepped in the interim and was immediately able 
to make a tremendous difference and improvement. And I know 
that you are happy with what she was able to do. And I wanted 
to acknowledge that and then thank you for now being the formal 
and official director, and I look forward to your remarks.

   STATEMENT OF THE HON. W. CRAIG FUGATE,\1\ ADMINISTRATOR, 
    FEDERAL EMERGENCY MANAGEMENT AGENCY, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Fugate. Thank you, Madam Chairman and Senator Burris. 
There is always your first time to testify a lot of 
formalities. I have submitted written testimony to address some 
of the questions. I have some opening statements. I will try to 
keep these short because I would rather have the questions and 
be able to have the dialogue.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Fugate appears in the Appendix on 
page 35.
---------------------------------------------------------------------------
    I am pleased to be here to represent Homeland Security and 
the Federal Emergency Management Agency to talk about 
preparations for 2009. And I really appreciate the opportunity 
to come before you, particularly your leadership in these 
issues, this Subcommittee's work in identifying as a Nation 
where we need to go. That kind of talks about changing how we 
want to approach things.
    We, in FEMA, believe our role is to ensure that we are 
working together as a Nation to build, sustain, and improve our 
capabilities to prepare for, protect against, respond to, 
recover from, and mitigate against all hazards. And the key 
thing here is recognizing that FEMA by itself cannot be 
successful.
    Many of the groups that you have represented today in your 
hearing are part of that team. More importantly, it is our 
local and State officials and the volunteer organizations, but 
ultimately it is our citizens that are part of that team. And 
if nothing else, I am trying to get people to recognize that 
the public is not the liability; they are the resource that can 
help us be more successful, but we also have to be there for 
their needs when disaster strikes.
    As you know, the Post-Katrina Emergency Management Reform 
Act of 2006 established the position of administrator, provided 
for the authorities and additional functions that we now have 
at FEMA, more tools that, as you pointed out, last year began 
showing the improvement, but, again, we still have a ways to 
go. And it allows us to further strengthen that relationship 
with our State partners, with our tribal and local governments 
as part of that community. It is contributed to our increased 
operational capacity to manage all types of emergencies.
    As you remember, one of the challenges in Hurricane Katrina 
was not being able to move and release items until there was a 
declaration. And the challenges of pre-positioning and 
providing that assistance, that clarity, has been brought 
because of the work your Subcommittee did and the findings that 
said we needed to enable the administrator and the team to 
support governors more proactively.
    We continue that work in empowering FEMA to do that. In 
fact, as you point out, we face a variety of hazards. We have 
also instituted, starting this morning, no-notice exercises. To 
begin testing the team, we simulated a major earthquake in 
California this morning at 6 a.m, no notice to the team, to see 
and make sure that we are reinforcing these procedures so that, 
as you point out, we are not 72 hours after disaster strikes 
getting critical resources there in support of the governors.
    This process of building this team and enhancing what you 
have given us, the tools, is really what we are focused on in 
this 2009 season. There is tremendous capability that has been 
built and the legal construct that often times your work, the 
Subcommittee's work, and the legislation's past has addressed. 
Now it is our responsibility to make sure we can implement that 
fully.
    So as we go through this and build these integral 
partnerships--Secretary Napolitano, as you pointed out, and 
Nancy Ward, who I just cannot say enough great things about, 
having worked with her as a State Director, having her serve in 
that role and helping transition as I came on board, and now, 
again, a very strong regional administrator as part of the FEMA 
family. As you pointed out, she brought a lot of common-sense 
approach and got a good team to address the challenges we face 
in the recovery, and that is a continual commitment that we 
have.
    As I serve in this capacity, coming from a State director 
and working with Secretary Napolitano, as she was a former 
governor, we very much bring the experience that we were once, 
too, customers of our Federal family and the challenges we face 
in trying to help our citizens. And we continue to work towards 
that, and we are working on our State partners to give them 
more ownership of this process.
    We know that, as you point out, temporary housing--how do 
we house people after a disaster--is not a solution that we are 
going to be able to bring from Washington and fit all States. 
We really want to work with our States as we have developed 
some ideas and concepts to really work with our States and say, 
what other ideas have you come up with. How do we make sure 
that we are able to capture what resources are there, what is 
the best way to address that. We know that there is no one 
solution that fits every scenario, and we want to make sure 
that we are working with the States to build those housing task 
forces, so that as, unfortunately, these may occur in the 
future, we have more options as we go forward.
    It is again, multidiscipline, multi-team approach. We need 
to have that ownership and buy in at all levels and integrate. 
And when I said working together, I think sometimes when we 
look at our planning process, we are so government-centric, we 
forget that the community's a lot more than government.
    As you have here, some of the volunteer agencies that are 
represented, of course, our partners, the American Red Cross, 
the people that promote the United Way with 2-1-1, and 
brokering those resources is critical, that we bring about that 
team approach and that we work as not just representing 
government but what the private sector does.
    I mean, to me, it is always the challenge--does it make 
sense to be distributing supplies when we have an open grocery 
store, but we have other areas in the community that are not 
served? And we cannot do that if our focus is we are just going 
to build a government-centric team and we do not recognize. We 
have to build a team that involves all the partners that can 
serve and support our citizens. But most importantly, making 
sure our citizens understand they have a role to be as prepared 
as they can so that when disaster strikes, we can focus on the 
most vulnerable citizens because we have done our part to get a 
plan to be ready.
    Finally, the last thing, Madam Chairman, as my time runs 
out, if we can just ask folks--all this work that your 
Subcommittee is doing, we can do a lot more if people do one 
more thing when disaster strikes. If you and your family are 
OK, check on a neighbor. We can do a lot more working together 
than we can just trying to do it from a government-centric 
approach.
    Senator Landrieu. Spoken like a true local FEMA 
administrator. I thank you. And we will give you as much time 
as you need. Thank you for sticking to the 5 minutes, but I 
want to be very liberal with you in your time because I do 
think that you have a great message to bring to the Nation.
    General Grass.

    STATEMENT OF MAJOR GENERAL FRANK GRASS,\1\ DIRECTOR OF 
               OPERATIONS, U.S. NORTHERN COMMAND

    General Grass. Chairman Landrieu, Senator Burris, thank you 
for the opportunity today to represent and present comments of 
the defense support to civil authorities that we do at NORTHCOM 
everyday. I would like to take just a moment to introduce my 
executive officer, Commander Dan Baxter, who grew up in 
Jefferson Parish, Louisiana, a great naval aviator, and has 
many relatives living there today. He definitely understands 
the hurricane season, ma'am.
---------------------------------------------------------------------------
    \1\ The prepared statement of General Grass appears in the Appendix 
on page 48.
---------------------------------------------------------------------------
    Senator Landrieu. Very nice to meet you.
    Commander Baxter. Thank you.
    General Grass. We at U.S. Northern Command are privileged 
to be a member of the whole U.S. Government approach to 
disaster response, including active Guard and Reserve, 
alongside our Federal, State, tribal and local partners.
    We started our planning this year well in advance of the 
past year. We stand ready to assist the primary Federal 
agencies in responding quickly to man-made and natural 
disasters when directed by the President or the Secretary of 
Defense. When requested and approved by appropriate Federal 
officials, in accordance with the national response framework, 
we support civil authorities by providing specialized skills 
and assets to save lives, reduce suffering, and restore 
infrastructure in the wake of catastrophic events in the 
homeland.
    Last year, during one of the most destructive hurricane 
seasons on record, we supported the Department of Homeland 
Security and the Federal Emergency Management Agency in 
responding to three major hurricanes, Hurricanes Gustav, Hanna 
and Ike, within a 13-day period.
    We continued to take significant steps in improving our 
response capabilities. First of all, we have incorporated the 
Joint Staff standing execution order to streamline defense 
support to civil authorities within operational planning for 
the 2009 hurricane season. This Joint Staff Execution Order 
provides U.S. Northern Command commander the authority to 
establish operational staging areas, Federal mobilization 
centers, national logistic support areas, and Department of 
Defense base support installations to support FEMA. In 
addition, our 10 full-time defense coordinating officers and 
their staffs coordinate and plan continually with their 
respective FEMA regions.
    In collaboration with the Department of Defense and the 
Department of Homeland Security, we have also developed pre-
scripted mission assignments for FEMA. We have 24 of those 
approved currently. It provides a menu of response capabilities 
with a cost to FEMA so they can quickly respond and request 
those mission assignments, based on anticipated requirements of 
medical evacuation, damage assessment and commodity 
distribution, to mention just a few.
    Finally, in 2009 February, we co-hosted the first National 
Guard and Northern Command Hurricane Planning Conference, in 
South Carolina. It brought together adjutant generals from the 
Eastern and Gulf Coast States, along with the chief of the 
National Guard Bureau and General Renuart, my boss, to the 
opportunity to look at gaps and also work with FEMA and other 
interagencies, and provide a list of shortfalls that we 
anticipate, based on current deployments, for the 2009 
hurricane season.
    Additional planning for the 2009 hurricane season included 
discussions with U.S. Transportation Command on aeromedical 
evacuation, general population evacuation, discussions with the 
Department of Homeland Security and also FEMA, Health and Human 
Services, and our service component commands. All of these are 
planning conferences and table-top exercises we have conducted 
in preparation for the season.
    If and when called, Northern Command continues to stand 
ready to provide robust support to civil authorities during the 
2009 hurricane season. Thank you for the opportunity to present 
today, and I stand ready to answer your questions.
    Senator Landrieu. Thank you, General. We very much 
appreciate it. Senator Burris.

              OPENING STATEMENT OF SENATOR BURRIS

    Senator Burris. Thank you very much, Madam Chairman. And to 
our distinguished panel, it is certainly a good opportunity to 
listen and learn what we are preparing for.
    Mr. Fugate, we know that we had a bad--it was not quite a 
tornado. We hear a lot about hurricanes, but inland a hurricane 
is a tornado, and that is what we get in Illinois. And my home, 
as a matter of fact, is in Tornado Alley down in Southern 
Illinois. And we just had a big storm come through a few weeks 
ago, and it was not quite at the tornado level. They called it 
a ``dorado.'' But they come up with this new name for it, but 
it is high winds that reaches about 75 miles an hour.
    Is that correct, Mr. Fugate? Is that what they call it now, 
a dorado?
    Mr. Fugate. That is one term they use. You also may hear it 
called a microburst. My experience has been if you lose your 
roof, it is kind of academic. It was a strong----
    Senator Burris. It is a hell of a storm. Right.
    Mr. Fugate. Yes, sir.
    Senator Burris. And we had quite a bit of damage. And, of 
course, our governor has asked for some assistance, and I am 
just hoping that assistance would be forthcoming because, 
unfortunately, in Southern Illinois, there is a lot of poverty 
and it is just not that much resources. So I just hope that we 
can get some assistance on that.
    Are you familiar with that request? Has it been put in for 
Southern Illinois yet?
    Mr. Fugate. No, sir, I am not. We will research that. It 
could still be at the region. I have not seen it.
    Senator Burris. It was about 6 weeks ago.
    Mr. Fugate. Yes, sir. It may have already come through. I 
have been on the job for about 2 weeks and 3 days, so if I have 
not seen it, I will find out where it is at, sir.
    Senator Burris. Check it out for us.
    General, I was down in my National Guard facility, down at 
Camp Lincoln the other day, and we were talking about a 
coordination of the disasters of what our National Guard does. 
We also have another issue called flooding over that 
Mississippi River that ends up in New Orleans. But it comes 
down through Illinois, roaring like a Mack truck doing 90 down 
I-55. And it leaves in its wake a lot of flooding.
    And I was just wondering, how does NORTHCOM coordinate with 
the National Guard in terms of the disaster coordination? Does 
it go through the National Guard first or who is really in 
charge there?
    General Grass. To answer your question, our coordination is 
with the National Guard Bureau, but the first response will 
always be with the National Guard supporting the State and 
local officials.
    We, though, immediately upon indications that there is a 
disaster pending, we will begin to coordinate with the National 
Guard in case there are gaps in their capability to respond. 
And I talk with the National Guard chief of operations daily, 
looking across the country, looking at where they have forces 
deployed so we are prepared to respond if they have gaps.
    We recently responded to the flood in the Red River of the 
North in North Dakota, working with the National Guard in North 
Dakota and Minnesota. And we provided some active duty forces 
to back them up, at the request of the Federal Emergency 
Management Agency. And we prepositioned six aircraft.
    Senator Burris. Pardon me. So you say your request also 
could be from FEMA to you.
    Now, does that have to originate at the state level? It 
generally originates at the State level.
    Mr. Fugate. Senator, the process by which we would activate 
NORTHCOM would be at the request of the State, and we would not 
have assets within either your National Guard or other Federal 
assets, and it was appropriate. We would mission Task D folks 
at NORCOM to provide that assistance.
    But one of the things we have done--and this goes back to 
some of the issues that Madam Chairman had raised previously. A 
lot of times, these would be requests that we had not planned 
ahead of time.
    What we have done is after Hurricane Katrina, and then 
after the hurricanes last year, we have developed what we call 
a pre-scripted mission, which is, essentially, we are putting 
together the types of things that we would be likely asking for 
from NORTHCOM. We write these missions out very clearly what we 
are trying to accomplish. NORTHCOM then identifies the 
resources, trains those resources, and have them ready to go so 
that rather than trying to describe or call up pieces to do 
something, we can activate a mission package that NORTHCOM can 
then execute in support of our mission, which is working 
through those States.
    So if it exceeds the capability of that National Guard, we 
often times have built these packages for the threats we know 
about, so that whether it was to do a flood fight, whether it 
was to support mass care, whether it was to support commodity 
distribution or bring in specific equipment, these are the 
types of things that we have written out. I believe there are 
over 260 of those missions we have already written out. And 
that is in addition to the capability NORTHCOM could do in 
addition to the support we would have from the Federal family 
for things we had not written one on.
    One of the things we try to do in our after-action reports 
is capture anything that was different that we either needed to 
adjust that mission or we needed to create a mission support 
for. So that is a constantly evolving process each time we go 
through a disaster.
    Senator Burris. Well, gentlemen, I have naturally been a 
civilian for so long, coming back into the government. I think 
the general public has no idea of the preparation and planning 
that goes into these disaster. And what I am certainly saying 
as a public official, it is good that I know these things so, 
hopefully we can get a message out to the people that we are 
really prepared to assist in these situations, which leads me, 
Mr. Fugate, to another question.
    Are you familiar with what the University of Illinois has 
with this super computer that they are simulating the tornadoes 
and the hurricanes, and simulating disasters on these computer 
models?
    I was down at the University of Illinois, which has the 
fastest computer, Madam Chairman, in the whole country. And 
what they showed me a demonstration of is a simulated tornado. 
And they can then study this, and then actually prepare, based 
on the atmospheric conditions that are taking place and the 
development of the various winds and velocities, and all the 
other elements that go to make up a tornado, as well as 
simulating floods and a disaster, even at the city of Chicago. 
They have this computer design that, say, if there is a 
disaster in Chicago, where are evacuation routes.
    Do you know of any other facility where this is being 
studied computer-wise or these simulations are taking place?
    Mr. Fugate. Senator Burris, I know there are a lot of 
different programs out there. I do not know directly about 
this, but I will ask my staff to get with your staff so I can 
be briefed on it, sir.
    Senator Burris. Yes. We would certainly like to let you 
know what the University of Illinois is really coming up with 
in terms of the simulations and the preparations for it.
    Senator Landrieu. Thank you, Senator.
    I am actually aware of a center like that in Louisiana. I 
do not know if our computers are as fast as yours, but we will 
see. I think it is; the battle of the computers here between 
Illinois and Louisiana. But I am very impressed with what 
several of our universities have done on the heels of 
Hurricanes Katrina and Rita, and using technology that was 
there, and building some strategic partnerships.
    So let's explore the opportunity because there may be some 
real expertise out there, Mr. Fugate; I know there is at the 
University of Lafayette because I have seen it. Perhaps, 
Senator Burris has a suggestion as well.
    I would like to get to my line of questioning if I could, 
Senator, and we will come back.
    I wanted to ask, first, Mr. Fugate, what are your top three 
priorities? I know you have many, but if you could, for this 
Subcommittee--because we would like to work with you. We are 
going to push. We are going to work with you, but push to get 
the very best systems we can.
    So what are your top three priorities as you are stepping 
in to an agency that has really been on the front line in many 
ways these last few years? And I am certain that you have 
discussed this with the Secretary and with the highest levels 
of this Administration. So would you outline that for us now?
    Mr. Fugate. Yes, ma'am. They are rather broad, they are 
easy to communicate, and they require a lot of moving pieces, 
and they are very simple.
    My first and my greatest priority is to increase the 
responsibility of participation of our citizens to prepare for 
disaster. I truly believe that far too many of us who do not 
get ready, do not prepare, often times put our most vulnerable 
citizens in jeopardy as we compete for those needed resources. 
And in looking at these large-scale type disasters, I know that 
the more that those of us that can be ready, can be prepared, 
the more successful the team will be. That is one.
    Two. I really have come into this job with the 
understanding that in our response to the immediate needs to a 
State and a governor, we need to be focused on the outcome we 
are trying to achieve and not necessarily look at process. I am 
challenging the team, as we have been participating in 
hurricane exercises, to not merely define our response by our 
capabilities, but define the response by what is needed to 
support an impacted State and local government, recognizing 
there are many parts of that partnership.
    But as an example, it does not seem to me to be very 
effective in search and rescue operations that if we are not 
reaching the injured quickly, that we are mobilizing, staging 
and assessing, and it is still 2, 3 days into the event, and we 
have not reached people, we have not changed that outcome. So I 
would rather take the approach of let's define what that 
outcome should be. Let's then work in partnership and say, 
rather than waiting for a disaster and trying to bring it from 
the outside, how do we build that capability within those 
communities, within those States? And then where the Federal 
Government responds, how do we do that.
    But speed and stabilization have to be based upon not what 
we can build capability to and say that is what the response 
will be, but look at what could happen and go, if that does, 
have we got all the parts of the team working together, 
including our support from the National Guard, from our active 
duty and reserve components, to achieve that? And not merely 
go, we are going to incrementally improve something.
    I think that starts getting back to the crux of some of 
your issues that you raised, some of the challenges we had in 
2008, such as hospitals that we had not gotten generators pre-
planned for. We need to do that ahead of time, because it is 
not a generator, it is getting that hospital back on line. And 
that may mean a generator, an electrician, or a mechanic. And 
if you just look at one piece of it, you did not get the 
outcome, which was getting that hospital back on line so you do 
not have to evacuate it. And that is one of the things that I 
learned and continue to bring forth. So that response, based on 
changing outcomes.
    The third piece--and this is a piece I have seen in much of 
what you have been trying to get in testimony; it is much of 
what you have been writing about--is what is recovery? We keep 
talking about long-term recovery; we keep trying to build it. 
And I keep walking away from it. I am not sure that all the 
pieces understand what we are trying to do. And I certainly 
recognize the Stafford Act all by itself will not achieve what 
we need to achieve. But if we do not have some focal point that 
says this is where we are going, then I think we get lost in 
our housing programs. We get lost in these solutions because 
they are not really tied to that outcome.
    It is a very simplistic approach, but it helps me guide an 
outcome that I can articulate and begin looking at the variety 
of resources we have at the Federal level to support State, and 
that is reestablishing a tax base in a community within a time 
frame that I would say no greater than 5 years, that equals or 
exceeds that tax base prior to the event. And this is 
recognizing you do not want to just take 5 years, but in an 
event like Hurricane Katrina, where we have so much rebuilding 
to take place, that it is----
    Sometimes people say it may be a simplistic measure, but 
having been in government most of my life, tax bases are a good 
indicator of the health of the economy. It tells us how many 
homes we have. It tells me that businesses are buying permits 
and people are buying cars. It tells me that I can provide for 
the services, such as schools and other components. And it 
gives me a chance to start looking at programs that can come 
in, such as HUD dollars from Community Block Development 
Grants, training dollars that come in from the Department of 
Labor, working with Commerce and other groups and SBA to make 
sure that--sometimes disasters happen as a community is 
pivoting economically, and it does not make sense if you do not 
recognize that just putting it back will not change the 
economic outcome, and we still end up with a failure; so 
looking at something that may not be the best answer in all 
cases, but from the standpoint of being able to give us a focal 
point to start driving recovery. Not just merely administering 
the Stafford Act, but really getting to the point where a 
community has their tax base in tact, which is a good indicator 
that they can continue those services that have been 
successful.
    The housing mission, getting schools open, providing public 
safety, setting the stage for business to thrive, helps me 
articulate a view that says as much as we work as a team to 
respond to the governor in a disaster--it is not FEMA. We 
merely are articulating, on behalf of the President, the team 
approach of all of our Federal agencies. That approach in 
recovery was just, to me, one of the things; that you cannot 
have a great response and not recover is still a failure.
    It gives us a better opportunity to start looking at 
holistically what Federal programs do we already have, what 
authorities we already have. And even though FEMA may not have 
those programs, helping provide that focus of the Stafford Act, 
parts of the program doing what it can, but also bringing in 
the rest of the Federal family to help a local government and a 
State re-establish that government, that tax base, which in 
turn is a reflection that we have been able to achieve these 
things, such as housing, jobs, and maintaining the community 
infrastructure.
    Senator Landrieu. Well, let me say, Mr. Fugate, what you 
have just outlined is music to my ears. And the people that I 
represent will be very grateful to hear such a clear and 
passionate vision of what is needed and, truly, what has been 
lacking for many years here, and your focus on citizens and 
empowering them to make decisions that help us make all of this 
much better, even though these are very difficult challenges, 
whether it is hurricanes, earthquakes, tornadoes, or great 
floods.
    Your focus on results as opposed to process, I cannot tell 
you how happy that makes this Senator. And what you just said 
about trying to define what recovery is because I myself have 
searched for that, and your focus on defining it as restoring 
the tax base, either 100 percent or 120 percent, or being 
satisfied with 80 percent. Whatever we decide it is, at least 
it gives us a goal that we all know we are working toward. And 
I think that is a very excellent vision that you have outlined, 
and I most certainly can appreciate the significance of it.
    Let me ask you this question, which I have to bring up to 
you because it is a very tough issue at home, is the V-zone 
issue.
    Can you take a minute to explain to the country what a V-
zone is, how many parts of the country are going to be affected 
by the Federal Government's current policy on V-zones, and why 
we are struggling right now with what we rebuild and what we do 
not rebuild?
    I am happy that FEMA released, I think, 60 percent of $33 
million or so that we have tied up in this issue which affects 
the building of fire stations, police stations along the coast 
of Louisiana, Mississippi. All the coastal communities from 
Texas to Mississippi to Florida are going to be affected as 
well as many communities alongside rivers. And I am going to 
get a map of the United States with all the V-zones on it so 
people can understand.
    You may find yourself in one of these V-zones. And if a 
tornado comes, Senator Burris, and destroys areas in the V-
zones, the reimbursement that your community thinks they may be 
getting from the Federal Government is not necessarily going to 
happen.
    So I would like Mr. Fugate to take a minute, and I am going 
to press you on how we can try to resolve this for our State. 
But go ahead.
    Mr. Fugate. Madam Chairman, a V-zone is a velocity zone. It 
refers to the Flood Insurance Program in determining risk, that 
these are areas that have the highest risk. And we have had, as 
a policy within the Nation, to direct new growth away from the 
most vulnerable, most hazardous areas. That is a good policy; 
it makes sense.
    The challenge, though, however, is as we go back and re-map 
and identify these areas, we are often times finding that we 
have many communities that were built in the V-zone and 
historically are there--and as we had developed our policy of 
passively directing construction out of there and again, not 
wanting to put new growth there. But when you had a disaster, 
if something was damaged there, we would relocate.
    Well, there are probably opportunities in a small event, 
where we had only a few homes, that relocation would make 
sense. But when you are dealing with the challenges we find 
across the Gulf Coast and other places that, when you look at 
the new data that would suggest it is a high velocity or a 
high-risk area, merely using the passive approach of removal 
and not rebuilding the totally destroyed but allowing repairs 
to damaged buildings, but mitigating, really did not recognize 
that we still have to ask the question that as good stewards, 
we do not want to promote growth in a hazardous area, but if it 
is already there, can we not look at engineering? And I 
understand, Madam Chairman, you have just come back from the 
Netherlands where they do a lot more active engineering to 
protect property that we would look at as being in a vulnerable 
zone.
    So I think we are reaching a point, where as we come back 
and we discuss the reauthorization of the National Flood 
Insurance Program and we look at V-zones, we have the immediate 
issues you are facing right now in your district that we are 
working under our current rules and regulations. But also 
looking at, as we go forward, is it time to recognize that 
there are many places along coastal communities that are going 
to face this same challenge in a disaster; that we have to 
recognize it?
    If we are going to allow a repair to occur if we mitigate, 
why would a destroyed building not also be considered the same 
factor? And should we not be looking at if we can engineer a 
solution that keeps the public safe, reduces the future 
damages, does not commit to new growth in these areas but 
allows those historical communities to rebuild as they were, 
but better so they are not damaged. I think that is something 
we have to ask ourselves as a country. And this will be, again, 
through your leadership and through the process of Congress, 
looking at reauthorization that we want guidance on.
    But I think we have to recognize that for far too many 
areas, that a passive approach of relocation only does not 
provide options that communities need to be able to continue. 
As you pointed out numerous times, doing an alternative project 
for a fire station fire away from the community it is supposed 
to protect does not make any sense.
    Senator Landrieu. And I want the public to understand the 
significance of this issue. Right now, we have communities that 
have been in place for hundreds of years, that are vibrant 
communities, vital communities, that are shipping communities, 
that have been designated as V-zones. The current law says FEMA 
will--you can repair your home, but we will not build a fire 
station, we will not build a post office. We will not build a 
library.
    So the question then becomes how viable a community can you 
remain without a fire station, without a police station, 
without a library? And that is a big question. And when this 
map is put up, which I do not have today, it is going to show 
all the V-zones in the country and how many millions of people, 
millions and millions and millions of people, live in V-zones, 
which are in this Senator's State. I can promise you this is 
going to be a major debate on this reauthorization of flood 
insurance.
    As you know, I have a hold on that bill. That hold is going 
to remain until this issue gets resolved in a way that I 
believe, or my Subcommittee--I am only one Senator, but this 
Subcommittee is going to work very close with you to find a 
rational approach, which is part of what motivated me to go to 
the Netherlands because I think that they have an extremely 
rational approach to this issue, which is a whole different 
system we will not get into at this hearing, but we will have 
some more hearings on that subject.
    I have been joined by my Ranking Member, and I would like 
to recognize him now because, as I was pointing out, he and I 
have quite a challenge. And why I love having him on my 
Subcommittee, when I pointed this map out to him, he said, 
``And, yes, Strom Thurman was there through most of these.''
    Senator Graham. He did not miss many of them.
    Senator Landrieu. So he is ready to work side by side with 
me.
    And let me correct myself. When I pointed out earlier, 
Senator--the blue is actually the route of Hurricane Rita, 
which was one of the second largest, I think, storms of all of 
these, and Hurricane Katrina was the yellow. I said the 
reverse. And I, of course, should know these patterns better 
than anyone. So Hurricane Rita was the blue and Hurricane 
Katrina was the yellow, and this was done before Hurricane Ike. 
And I am going to put Hurricane Ike up there because it really 
ran right smack into Galveston. And I am sure you have had some 
major storms in your time.
    But, Senator Graham, let me recognize you at this time.

              OPENING STATEMENT OF SENATOR GRAHAM

    Senator Graham. Well, thank you, Madam Chairman. That would 
be interesting modern art, and it is just scary that it 
represents hurricanes. Hurricane Hugo came through South 
Carolina and was very devastating.
    One, I appreciate the work of the Chairman of this 
Subcommittee. I have never met anybody in the entire Congress 
more dedicated to a cause than you are to this Subcommittee. I 
am just trying to stay up with you. But South Carolina is 
certainly in harm's way.
    I want to thank all the folks at the State, local and 
Federal level who help our fellow citizens with disaster. In 
Myrtle Beach, we had a huge fire. The fire did a lot of damage 
to Myrtle Beach. And it is not just hurricanes. The Red Cross 
was there. So hurricanes are what we are talking about today, 
but coastal communities can be hit in many different ways.
    Ron Osborne, the Director of the Emergency Management 
Division, the Office of Adjutant General, Madam Chairman, could 
not be here today, but he prepared a report about hurricane 
preparedness, and I would like to submit it to the record. They 
are doing an exercise in South Carolina, a major exercise 
today. But Mr. Osborne is a very smart guy, and I would like to 
put this into the record and share it with the Subcommittee.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement from Ron Osborne submitted by Senator 
Graham for the record appears in the Appendix on page 93.
---------------------------------------------------------------------------
    Senator Landrieu. Without objection.
    Senator Graham. And one final thought. As you talk about--
when you go down to the coast of South Carolina, land is 
obviously very valuable, but there are a lot of minority 
communities and where do they go? I mean, there are people that 
have been there, literally, generation after generation after 
generation, and where do they go and what do they do? For 
someone that may live in Nebraska or on the upper part of South 
Carolina where hurricanes are not such a factor, I think we 
want to make sure that our coastal residents can get help.
    I mean, people are not being irresponsible. They are not 
living in areas for mudslides. I mean, so many people in our 
country live along the coast, and it is a rich tradition 
culturally, the Gullah culture in South Carolina, and I want to 
hang on to it. I want to make sure that we have that rational 
approach.
    So, Madam Chairman, I will help you in any way I can to 
make sure that when a community is hurt, the community is 
rebuilt, and that community includes fire stations, libraries 
and other aspects of a community. Because if you are not 
willing to invest in those things, you have lost a community, 
and these communities are worth hanging on to.
    Senator Landrieu. Thank you very much. Let me ask the 
General a question if I might.
    You said that the exercises that you have recently 
conducted identified some gaps, General, in the organization 
between NORTHCOM and the National Guard.
    Could you identify for us one or two or three of those gaps 
that you identified and what you are doing to close them?
    General Grass. Madam Chairman, as we met in South Carolina 
in February, the first thing we did was we brought together the 
staff from the National Guard from each of the 11 coastal 
States. And we sat with the National Guard, FEMA, and then we 
brought in a representative from Beaufort County, county-level 
first responder, and then we brought in the State coordinating 
officer.
    What we did is we walked through those gaps from how the 
locals would be responding, how the State would respond. Then 
the National Guard gave us a lay down by State of where their 
shortfalls were. Then FEMA came in and explained what 
capabilities they may be requesting, and then General Renuart 
summarized the table-top exercise.
    I would tell you that the biggest shortfall in this current 
hurricane season probably is in the brigade structure within 
the National Guard because of the number of brigades deploying. 
Even though it is a shortfall in certain regions--and it is not 
a shortfall across the Nation. So it is a matter of 
reallocating forces. And the National Guard is working very 
closely right now with the State's adjutant general to identify 
those forces that can fill those shortfalls.
    So the brigade structure was one area. Another area was the 
number of rotary wing aircraft that could be deploying. Again, 
we looked across the States, and there are plenty of assets 
available. It is, again, identifying those well in advance, who 
would back up who within the States. And on top of that, we 
have looked closely at the active component, both Army, Navy, 
Air Force, Marines, and Coast Guard assets, working with the 
Coast Guard through DHS to see where their assets would be 
available as rotary wing would be called into the emergency.
    The last area that I would mention that is of concern to 
us, and we worked closely last week with U.S. Transportation 
Command, DHS, FEMA, Health and Human Services, and the 
Veterans' Administration, is aeromedical evacuation. And I 
think we have improved greatly since last hurricane season on 
the ability to identify patients that may be moved, how to 
receive them on the outbound end. And the problem I think that 
we will face, and we have brought it up and discussed at great 
length, is the release time of those patients at local and 
state levels, because if you wait until the last moment, we can 
only move so many patients.
    So we are trying to have our defense coordinating officers 
working closely with Administrator Fugate's Federal 
coordinating officers to talk to the locals and give them that 
time line, and say, if you make the decision 48 hours, here is 
the number of patients that we can still move and get aircraft 
in.
    Senator Landrieu. Now, I am going to ask my staff for the 
next hearing to design a chart along the Coast from Texas to 
New York, and indicate how many nursing home patients live 
within 30 miles of the coast, and I am going to provide those 
numbers for you. Because, as you know, in Hurricane Katrina, we 
had the very unfortunate incidents of dozens of patients 
drowned in those nursing homes. And, of course, it was quite 
traumatic for the families as well as for the victims, 
obviously.
    I do not think people realize, like Senator Graham just 
said, how many people live near this coast. And not everyone 
that lives near the coast has an automobile. Not everyone is 
well. Not everyone is strong enough or young enough to move 
out--they have got to have help moving out--or be wealthy 
enough to afford the several thousand dollars that it costs to 
leave your home for several days. Even if you manage to just 
find shelter in a tent, there is some expense associated with 
that. And I just do not think people have an idea of this that 
have not recently gone through what some of our States have 
gone through.
    So that is going to be an interesting focus. And I think 
that you have identified this MedEvac situation as something 
with which the National Guard and NORTHCOM can be very helpful. 
Because, as you know, States do not have helicopters to move 
their citizens out of harm's way. So it would be helpful to 
have these Federal assets available to conduct this evacuation.
    Senator Graham. General Grass, it is not a question of lack 
of capacity in terms of overall numbers for the Guard; it is 
just the resources may not be in the right spot. Is that 
correct?
    General Grass. Senator, yes, sir.
    Senator Graham. And I hear recruiting and retention is 
pretty good now in the Guard?
    General Grass. Yes, sir. They are over-strength right now.
    Senator Graham. How important is the Guard to hurricane 
assistance in terms of the different agencies involved? How 
important does the Guard--what role do they play?
    General Grass. I cannot talk for the National Guard being a 
Title 10 Federal officer right now serving at Northern Command. 
But I grew up in the Missouri National Guard, so I will talk 
about my experiences from the past. But they are the first 
responders in support of the fire departments, the emergency 
responders, and the governor. And so, they are going to be 
there first. And it behooves us at NORTHCOM to understand their 
capability, look at their response times, because if they are 
successful at the local level, that is less Federal assets that 
we have to put forward.
    Senator Graham. You do not see any need from this 
Subcommittee or the Armed Services Committee to plus up 
anything? It is just to redistribute, reorganize what we have 
got?
    General Grass. Yes, Senator. The Congress has been very 
gracious with the Department of Defense in our ability to look 
at what we call the 10 essentials that we use in the homeland, 
those capabilities that we respond to disasters. And we are 
coming along very well and improving that capability, 
especially in equipping of those 10 essentials.
    Senator Landrieu. Thank you.
    Mr. Fugate, would you comment, from your perspective, on 
the role of the National Guard, whether you consider it to be 
essential, and how you want to position your organization with 
it?
    Then also comment on the idea about a civilian-ready 
reserve force that could supplement both FEMA and the National 
Guard in terms of trained personnel that could be called out in 
the event of a catastrophic disaster, which, obviously, we 
cannot maintain on call every day, but it would be nice to 
maybe have something like that.
    Maybe that is partly what the Red Cross is going to do, or 
maybe that is a role the National Guard can play. But if there 
is a gap--please comment on the National Guard and then this 
ready reserve idea.
    Mr. Fugate. Thank you, Madam Chairman. The National Guard 
is a key component of any State governor's ability to respond 
to a variety of disasters. They are a force multiplier for the 
local and State responders.
    Again, with your leadership, upon my confirmation, one of 
my first visits was with General McKinley, commanding general 
of the National Guard Bureau, having worked very closely with 
my TAG, knowing that relationship. And, again, we have a very 
strong Statewide mutual aid system under EMAC. We leveraged 
that with the National Guard so that as units rotate in and 
out, we have capability, we identify other States. In addition 
to that, there is a lot of work done within the TAGs to make 
sure that things, such as your joint operation center training, 
that they are ready to go and support each other in a disaster.
    So I think it is a good team. It is a key component of our 
national defense strategy. But most importantly, they are the 
first of those assets available to governors on that governors' 
authority, and those governors can request from other State 
governors additional Guard units as part of their authority in 
managing a disaster.
    As far as the reserve component, there is actually some 
requirements that have been provided in the Post-Katrina 
Emergency Management Reform Act for FEMA to build and take our 
existing structures and build a more professional response 
force and provide more training and capabilities within our 
reserve force. And so, we are looking at that.
    As far as a standing reserve, that would be something I 
would like to further research. But I think there are some 
elements of that that we are already seeing in some of our 
programs, where we are not creating so much formal reserve 
processes, but building like community emergency response teams 
through the CERT training; and in many cases, building 
capabilities that are more adequately leveraged at the local 
level by enhancing, through community emergency response teams, 
through citizen corp capabilities, that people stand ready to 
help in their neighborhoods and their communities when a 
disaster strikes.
    Senator Landrieu. Thank you. General Grass, When you did 
your assessment of the Joint Task Force, one of the issues that 
came up was the significance of particularly this coast. I 
mean, all of our coasts have port assets. That, of course, must 
be maintained, not just for the benefit of those communities, 
but the Nation's economy depends--and in some measure you could 
say the world's economy depends on the continued operations of 
these major ports.
    If you start from Houston and work your way up to Maine, 
there are many major ports that can be affected. And we saw 
when Hurricane Katrina hit, one of the largest, by volume, 
ports in the Nation was shut down for a long period of time, 
and the oil and gas operations off the Gulf Coast came 
precariously close to shutting down as well.
    Had Hurricane Rita hit Houston, which it did not--it hit 
close to Houston. It was very interesting, as someone might 
want to write what could have happened to the price of oil and 
gas had both the Port of New Orleans and the Port of Houston--
and almost all offshore operations at that point would have 
been shut down for quite some time. That did not happen, but it 
would be an interesting research project.
    But what is your responsibility to the ports to keeping 
them open, and did you discuss that at your exercise, and could 
you testify to that point, please?
    General Grass. Madam Chairman, again, working with FEMA--
and I will give you an example of what we did during Hurricane 
Ike last year. We work closely with the Coast Guard through DHS 
and FEMA. And FEMA requested an amphibious ship be deployed 
into the Gulf. And the Port of Galveston was devastated by 
Hurricane Ike, and there was over a hundred obstacles in the 
channel. And so, the USS Nassau was deployed there.
    We have, any given day, two ships on the East Coast and two 
ships on the West Coast, primarily amphibious ships that can 
take on rotary wing helos. Also, it is the type that you unload 
vessels out the back that can respond. And we had Navy Seabees 
on board that went ashore, and they worked with the locals to 
try to open the port facilities, again, working at the request 
of FEMA.
    Senator Landrieu. Now, you said you have two ships on the 
East Coast and the West Coast. Do you have any on the Gulf 
Coast?
    General Grass. No, ma'am, not at this point. But the two on 
the East Coast would respond.
    Senator Landrieu. And they are able to get there in time or 
be pre-positioned in the event you had enough notice?
    General Grass. Yes, ma'am. If we receive a request from 
FEMA, we are prepared to move those. And as we move those, 
again, we are looking at the storm path to try to get them as 
close into a port as we can outside of the storm path.
    Senator Landrieu. Last question, Mr. Fugate, and I am going 
to submit several, about pets, about community disaster loans, 
and other things--trailers, alternative housing. But because my 
time is short, and because the season is now, and because a 
storm will hit, this debris removal for local communities is a 
nightmare, and it causes unmitigated pain and suffering on the 
part of local officials, that one of the first things they have 
to do is remove debris. And we had just one headache after 
another about FEMA's rules and regulations that went something 
like this.
    If the tree limb was more than 5 inches round, you got 
reimbursed at a hundred percent, if it was 4 inches, you got 80 
percent, and if it was 2 inches, you got 30 percent. I am 
exaggerating a little bit. But for the purposes of this 
hearing, what has been changed about debris removal in a 
catastrophic or major storm? What hope could you give to these 
local officials, that is one of their immediate headaches, 
trying to just clear their streets, clear their roads so that 
people can get back? Obviously, with debris there, no one can 
move. That has to be done. And it seems to me that we keep 
making mistake after mistake after mistake.
    So what can you do as the FEMA director to put a system in 
place that is clear, easy to use and cost effective? We are not 
asking the Federal Government to always pick up 100 percent, 
but we are asking the Federal Government to have clear rules 
and regulations so the local officials can actually begin the 
recovery, because without debris removal, there is no recovery.
    Mr. Fugate. Madam Chairman, debris and emergency protective 
measures are two of those things that I think that we have to 
make sure we know what the outcome is so we can get there 
quickly. And that is, to get debris, where, one, we can get 
access in the community, and, two, we get the debris up so we 
prevent the problems it creates and we begin the recovery.
    There were some successful programs started. There were 
pilots--I would like to revisit those--that provided a better 
incentive financially to the local governments and States, who 
went ahead and developed debris management plans. So they had 
many of these questions answered, knew what they were going to 
do.
    But I think it is also incumbent upon us at FEMA to make 
sure that our guidance is providing clear direction without 
being a process that is so difficult, that as a local official, 
the only way I can understand it is to hire a former FEMA 
official as a contractor to explain to me the rules; that I am 
now having to seek reimbursement from the Federal Government in 
my time of need.
    Senator Landrieu. Thank you very much.
    Thank you. The panel has been wonderful. I wish we could 
spend more time, but we will follow up. Thank you all.
    If the second panel would take your seats, please. Thank 
you very much for joining us. I would like to introduce all of 
you, and then in the order that I do so, you are asked to 
proceed with your opening remarks.
    Our first witness today on the second panel will be George 
Foresman. Mr. Foresman co-chairs the Advisory Board for the 
Corporate Crisis Response Officers Association. He is also the 
former Undersecretary for Preparedness and Emergency Response 
at the Department of Homeland Security. The Corporate Crisis 
Response Officers Association is a new organization chartered 
to identify, train, and engage crisis response officers, as 
local contact points for the public sector.
    So I am, as Chairman of this Subcommittee--and you heard 
Mr. Fugate say that we look to the private sector for partners. 
We want to not only look to the private sector for partners, 
but I want to look to the private sector for better 
technologies, operations and efficiencies that we can, of 
course, incorporate into the government response. And we thank 
you very much for your testimony today. We are anxious to hear 
your views and perspective.
    Next, we will hear from Armond Mascelli. Mr. Mascelli is 
Vice President of Disaster Operations at the American Red 
Cross. Mr. Mascelli is responsible for initiating and 
coordinating the Red Cross' response to major domestic 
disasters, and managing the organization's disaster logistics, 
technology and human resource systems.
    I understand the Red Cross since Hurricane Katrina has gone 
through a major reorganization, and we are looking forward to 
hearing some of the outcomes today.
    Finally, last but most certainly not least, Janet Durden, 
President of the Northeast Louisiana Chapter of the United Way. 
She served on the coordinating council for Louisiana 2-1-1, but 
this is actually a nationwide emergency response system that I 
think can be very helpful in all of the issues that we have 
talked about this morning.
    So, Mr. Foresman, if you will begin. Thank you.

STATEMENT OF GEORGE FORESMAN,\1\ ADVISORY BOARD CO-CHAIRMAN OF 
  THE READYCOMMUNITIES PARTNERSHIP, CORPORATE CRISIS RESPONSE 
 OFFICERS ASSOCIATION, FORMER UNDERSECRETARY, PREPAREDNESS AND 
    EMERGENCY RESPONSE, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Foresman. Senator, thank you very much. I am pleased to 
be here.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Foresman appears in the Appendix 
on page 50.
---------------------------------------------------------------------------
    Senator Landrieu, thank you for the opportunity to be with 
you this afternoon and to talk about the important work of the 
ReadyCommunities Partnership. We have provided written 
testimony and respectfully request that it be included in the 
record.
    The ReadyCommunities Partnership is an initiative for the 
Corporate Crisis Response Officers Association. It seeks to 
identify and implement best practices that help support 
improvements in public and private sector disaster response and 
recovery efforts. This initiative has grassroots, developed by 
a coalition of public and private sector leaders who recognize 
that better preparedness for emergencies and disasters could 
not solely depend on the actions of the Federal Government or, 
in fact, government alone.
    This initiative is centered on a community-based approach 
that seeks to further galvanize the resources of the public and 
private sectors to address a large-scale crisis in a community. 
These two sectors depend on each other on a day-to-day life of 
a community as they collaborate on how to improve their 
economic competitiveness, schools, and infrastructure.
    The partnership operates under a tenet that the dependency 
should be just as strong, if not stronger, during a crisis. Yet 
today, even following Hurricane Katrina and countless other 
disasters, a widespread cultural belief remains that envisions 
crisis response and recovery during the first critical 72 hours 
as being government-centered with private sector engagement 
limited to those for-profit companies and not-for-profit 
organizations that deliver essential services, like 
electricity, phone, debris removal, or disaster aid.
    As a result, the broader private sector is viewed as part 
of the victim population rather than as a potential community 
of resources to be leveraged to alleviate suffering and speed 
up recovery, and the communities return to normal.
    The ReadyCommunities Partnership seeks to give local, 
political and business leaders, as well as emergency managers, 
an additional low-cost tool to improve private sector 
integration for pre-and post-event crisis management efforts, 
while simultaneously acknowledging that it must be accomplished 
in a manner that complements existing government-centered 
community preparedness initiatives.
    Specific to the challenges that we face for the upcoming 
hurricane season, America's newest FEMA administrator, Craig 
Fugate, has just provided you with a very compelling update on 
FEMA's readiness for the upcoming season. I cannot think of a 
better or more qualified professional to lead FEMA. I will also 
offer that as someone who has been associated with the field 
for more than a quarter of a century, Craig and his senior 
management team are collectively the most diverse, qualified, 
and hands-on experienced group to ever occupy the senior seats 
of that agency. This is bolstered by the talented group and its 
parent organization, the Department of Homeland Security.
    It gives me optimism, and it should give optimism to 
Americans, that the Federal Government is continuing to reform 
and improve in its ability to support communities and States in 
dealing with emergencies and disasters of all kinds. But to be 
fair, however, even with this great leadership team, the 
Federal Government is but one part of America's preparedness 
equation. Federal readiness should not imply national 
readiness. Other parts, local and State government, non-
profits, the private sector, and America's citizens, have 
equally compelling and important roles in all aspects of 
communities, not just government actions. We need to make sure 
that the entire community is ready for the hurricane season.
    Our recent work with the private sector relative to the flu 
outbreak provides anecdotal evidence to suggest that private 
sector preparedness efforts remain inconsistent and not 
necessarily coordinated with the government officials in 
communities where these businesses operate. Even with the 
heightened attention to nationwide pandemic planning, for 
instance, over the past 4 years, there has been surprise at the 
number of businesses, large and small, who have done nothing at 
the assumption that their local, State and Federal Governments 
will and can do everything when a crisis like a hurricane or a 
pandemic appears at the front door.
    But yet, at the same time, we have seen innovative 
hurricane preparedness efforts along the Gulf Coast and the 
Atlantic Coast, between local and State governments, and the 
private sector, and in States such as Florida. But, 
unfortunately, these are not replicated across all States 
vulnerable to a hurricane strike. In light of both, we are left 
to conclude that, on the whole, community preparedness with the 
right mix of public and private collaboration and mutual 
dependence is lacking. This will create unrealistic 
expectations and requirements for government, and especially 
for the Federal Government. This Subcommittee knows that with 
preparedness efforts, leaders make the difference, business and 
government making the political and economic business case that 
crisis preparedness is essential to the physical and economic 
survival.
    In light of today's severely cash-strapped communities, 
States and businesses, there is very little margin for error in 
terms of the efficiencies applied to how we respond to and 
recover from disasters. The ReadyCommunities Partnership has 
seen the value of businesses, large and small, designating a 
corporate crisis response officer to work hand in hand with 
government in the preparation for and response and recovery to 
a crisis. These predesignated contact points, along with pre-
event collaboration, enhance the resiliency of a community in a 
crisis because when something bad happens, the right public and 
private officials are talking at the right time about the right 
issues.
    Thank you for the opportunity to appear today, and I look 
forward to your questions.
    Senator Landrieu. Thank you very much.
    Mr. Mascelli, am I pronouncing that correctly?
    Mr. Mascelli. Yes, ma'am, you are.
    Senator Landrieu. Thank you.

   STATEMENT OF ARMOND MASCELLI,\1\ VICE PRESIDENT, DISASTER 
                 OPERATIONS, AMERICAN RED CROSS

    Mr. Mascelli. Senator, thank you very much. It is an honor 
to testify before you on behalf of the American Red Cross. We 
appreciate this opportunity to share with you some of the 
details on our ability to respond to the challenges that may 
face the American people during the coming months. Before I 
begin my testimony, I would like to take this opportunity to 
thank our new FEMA Administrator Fugate for his work in Florida 
and to express the appreciation of the Red Cross for his 
support to our disaster preparedness and response efforts in 
that State.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Mascelli appears in the Appendix 
on page 52.
---------------------------------------------------------------------------
    For more than 125 years, the Red Cross has provided relief 
to the victims of disasters, helped families and individuals 
prevent, prepare for, and respond to emergencies. From single-
family house fires to large-scale disasters like hurricanes, 
the Red Cross works to provide essential life-saving and 
sustaining services to those in need. We shelter, we feed, we 
provide critical supplies and emotional support to those 
impacted by disasters in communities across our country. Our 
work relies heavily on generous contributions from the public, 
including donations of time, money, and blood.
    Today I will report on our preparations for the upcoming 
hurricane season.
    Our organization on a local and national level operates in 
a constant cycle of responding to disasters and preparing for 
the future. Red Cross regularly participates in activities to 
build capacity, to partner, to plan, prepare, exercise, and 
evaluate our capabilities.
    Spring is a critical time of year for us because, 
typically, we are responding to tornados and floods in one part 
of the country, while at the same time preparing for potential 
demands of the upcoming hurricane season. To meet expected 
needs, material resources have been pre-positioned in 23 
warehouses that we have across the country for easy access and 
mobilization. We have completed a detailed assessment of our 
communications equipment inventory and have verified the 
readiness of our nationwide disaster fleet.
    The National Shelter System is ready. It now contains 
shelter locations and capacity information for over 55,000 
buildings that could potentially be used as shelters across 
this country. The National Shelter System is used for both 
planning and operational decisions. It records all shelter 
openings and closings and overnight populations on a daily 
basis. We have made the National Shelter System available to 
FEMA and to all the States free of charge. And it is also 
currently being used by 12 other national non-government 
partners.
    Staffing for disaster operations is also a critical 
function that requires advance planning. While we focus on the 
use of local volunteers when possible, we also have a cadre of 
people trained and available to leave their communities to go 
to disasters. The number is now 50,000 available to travel, 
which is a substantial increase from the 23,000 we had 
available for Hurricane Katrina. These disaster workers are 
trained for specific jobs, and we are now in the process of 
evaluating availability for disaster assignment over the next 
several months.
    Since Hurricane Katrina, in part, as a result of several 
after-action reports, including one from the Senate Committee 
on Homeland Security and Governmental Affairs, the Red Cross 
has focused more resources on coordination with the Federal, 
State and local government. With support from FEMA, we 
currently have brought full-time Red Cross representatives into 
each of the 10 FEMA regional offices, and we also have two 
additional staff who are working at the FEMA National 
Headquarters. We have also tasked a staff member to work with 
the National Disaster Housing Task Force.
    During the last year, we have been working with State 
governments in improving planning; for example, the Red Cross 
and the state of Louisiana working toward a single unified 
sheltering plan. Discussions are continuing with the State's 
Department of Social Services and the Governor's Office of 
Homeland Security Emergency Preparedness about mutual logistics 
and sheltering for people with critical transportation needs.
    We recently participated, in the State of Florida, in a 
major disaster exercise with FEMA on a table-top exercise, to 
model a Category 4 hurricane affecting Savannah, Georgia. We 
also participated in a recent cabinet-level exercise that dealt 
with a catastrophic hurricane scenario.
    Identifying new and strengthening existing partnerships 
continues to be a strong priority of my organization. On the 
local level, chapters partner with local community, faith-based 
and civic organizations. We have also stepped up efforts to 
ensure that community 2-1-1 organizations have current disaster 
information. I would like to acknowledge to Ms. Durden the good 
work that the United Way has been doing in this area.
    In addition, we have cultivated and strengthened 
partnerships with such diverse groups as HOPE worldwide, the 
National Association for the Advancement of Colored People, the 
Legal Services Corporation, and the Tzu Chi Buddhist 
Foundation. In addition, we have worked closely with the 
National Association of Judiciary Interpreters and Translators, 
the Virtual Translation Center, the National Council of La 
Raza, National Disability Rights Network, and Save the 
Children. We have also worked with pet rights groups, such as 
the U.S. Humane Society.
    Seeing that my time is short, I will just move on to say 
that the Red Cross is also involved and continuing to improve 
our disaster response in a cost-effective way. In an economic 
turndown, the needs of the most vulnerable are magnified by 
disasters. At the same time, the donations to charitable 
organizations are decreasing. Like many non-profit 
organizations that depend on the generosity of donors, we are 
faced with financial challenges.
    The major disasters of 2008, such as the wildfires in 
California, flooding in the Midwest, and Hurricanes Gustav and 
Ike, created expenses that far outpaced donations. We were 
fortunate that our organization received support from 
Congress----
    Senator Landrieu. You could try to wrap up, if you could. I 
am sorry.
    Mr. Mascelli. With that, I will conclude my presentation, 
and if you have questions, I would be happy to answer them.
    Senator Landrieu. Thank you very much. Ms. Durden.

    STATEMENT OF JANET DURDEN,\1\ PRESIDENT, UNITED WAY OF 
                      NORTHEAST LOUISIANA

    Ms. Durden. Thank you, Chairman Landrieu. It is an honor 
and a privilege to have this opportunity to be able to speak 
today on behalf of the United Way and their 2-1-1 system across 
America. As you are aware, 2-1-1 is an information referral 
line that connects people to existing community resources, like 
rent and mortgage assistance, as well as food and utility 
assistance; however, 2-1-1 plays a vital role in disaster 
response and recovery. Trained specialists assist callers in 
times of natural disaster and crisis, providing real time 
information on shelter locations, food and water distribution 
sites, and all important evacuation routes. 2-1-1 disseminates 
accurate information about the crisis and it relieves the very 
overworked 9-1-1 dispatchers, who are also taking those non-
emergency calls.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Durden with attachments appears 
in the Appendix on page 58.
---------------------------------------------------------------------------
    As you are aware, 2-1-1 was truly a bright spot in a very 
difficult time in our State in responding to 2005 Hurricanes 
Katrina and Rita. Prior to the landfall of Hurricane Katrina, 
the 2-1-1 in New Orleans had to close. Our United Way, the 
United Way of Northeast Louisiana and Monroe, began taking all 
the 2-1-1 calls that were directed from New Orleans. Overnight, 
we expanded from a four-person call center there in Monroe to a 
65-person 2-1-1. We had additional support that was 
outstanding. From 2-1-1 call specialists around America, 25 
States sent people to our community, and there were hundreds of 
local volunteers that responded.
    As a result of that, in Monroe, 2-1-1 responded to more 
than 111,000 calls in 2 months. The call volume peaked at 7,358 
the day that Hurricane Rita hit. After 2005, we were even 
better prepared for 2008. Going into the hurricane season in 
2000, we had a partially integrated telephony, a statewide 
disaster plan, a centralized disaster database, and 24-hour a 
day, 7-day a week coverage.
    2-1-1 Louisiana answered more than 117,000 calls between 
Hurricane Gustav hitting on August 31 and September 16, 2008. 
In the peak of that, we were assisted by the 2-1-1 system in 
California, which was invaluable in expanding our capacity. In 
an 8-day window, when Hurricane Ike hit Texas in September, the 
Texas 2-1-1 answered 157,000 calls, an absolutely incredible 
response. Inland, the aftermath of Hurricane Ike caused 
unprecedented flooding, as you are well aware, and wind damage 
throughout the Midwest. The 2-1-1's in Missouri, Iowa, Indiana, 
and Ohio played significant roles in their recovery efforts.
    The 2009 preparation is well underway, and I am pleased to 
report to you that we have complete integrated telephony 
throughout the State of Louisiana. Most importantly, we have an 
extended and enhanced relationship with the Louisiana State 
government. I am pleased to tell you that we have had both Red 
Cross, 2-1-1 and the National Guard embedded in DSS for months 
of planning that have been underway. And third, I would tell 
you that statewide, we have recruited and begun training 
response volunteers if called upon. However, there remain 
enormous vulnerabilities, and I would like to address those.
    The current economic crisis has surged the call volume 
beyond the current capacity of our system in many locations 
around America. Most 2-1-1's are still in need of critical 
elements for disaster response. For example, generators, 
remote-controlled calling ability, telephone service priority 
arrangements with telephone companies, and of significant 
concern to all of us are the gaps in services along the U.S. 
Atlantic coast.
    To properly respond to disaster, 2-1-1's across America 
need to unify technology and standard operating procedure to 
ensure best responsiveness. Every resident must have 2-1-1 
access on any kind of telecommunications device, particularly 
cell phones. 2-1-1's need a system of national inoperability 
with each other and other three-digit numbers.
    Senator Landrieu, we are in desperate need of the Congress' 
help to ensure both a reliable response to disaster and to 
everyday needs. Fortunately, Congress can cure this 
vulnerability during this session by passing the Calling For 2-
1-1 Act before the next event occurs.
    Senator Landrieu, we are extremely grateful to you for your 
steadfast support of this legislation, for your co-sponsorship 
of the bill, and your ability to deliver on dedicated Federal 
funding for Louisiana 2-1-1 this year. Thank you again for this 
opportunity, and I welcome the opportunity to answer questions.
    Senator Landrieu. Thank you very much. I really appreciate 
the content of all of your testimony and the thoughtfulness 
that went into it.
    I would like to start, Mr. Mascelli, with questions here to 
you about these charts,\1\ which represents the National 
Shelter System. I know that this was probably in your testimony 
in some detail, but could you take a minute to explain.
---------------------------------------------------------------------------
    \1\ The charts referred to appear in the Appendix on pages 99 and 
100.
---------------------------------------------------------------------------
    These are all the, and the only, official Red Cross 
shelters. And would you describe most of them as school 
buildings or most of them as churches or places where people 
worship? How would you describe the shelters if someone looked 
at that map and said describe the actual buildings that those 
dots represent?
    Mr. Mascelli. Yes, Senator. You are right in the sense that 
most of them are public buildings. Part of the criteria when we 
look at buildings, along with safety construction, etc., is 
that they have facilities there that could support a 
population: Kitchens, bathrooms, etc. Schools and churches fill 
that bill quite readily, so most of them are either churches or 
schools throughout the United States.
    We had the shelters before Hurricane Katrina, but after 
Hurricane Katrina, we actually put those into a database. So 
the first time, in a computer base, we could see where they 
were at short notice, what might be available. And also, when 
we actually have a disaster, our local chapters will report 
back to us how many shelters are opening, numbers of people in 
the shelters, etc.
    Senator Landrieu. And the school issue is interesting to me 
because, obviously, in a catastrophic disaster like the one 
that we had, and others have had, when people move in to 
schools for a long period of time, it is hard to actually 
operate the school. And one of the essential ingredients of 
recovery for parents with children is to get their children 
back in school as soon as possible because, then, at least when 
the children are in school, the parents can go about all the 
work that they need to do to rebuild their home, their 
business, etc.
    How does the Red Cross approach the use of school buildings 
in areas that could potentially suffer catastrophic flooding 
and destruction? And do you have a backup plan in the event 
that using schools in some areas might not be the best approach 
in that circumstance?
    Mr. Mascelli. There is right now work being done, but there 
is a long way from a solution regarding--and you are absolutely 
right, a place of catastrophic disaster. What happens when you 
have large numbers of people that are dislocated on a sudden 
basis for long periods of time? Now, there is the Housing Task 
Force that FEMA has, that really should be the natural 
connection from getting people from shelters into some other 
type of housing. I know that looking at evacuations of people 
to other areas, that is a possibility, but that has its own 
trials and tribulations in terms of dislocating large numbers 
of people to other communities.
    So as it stands right now, the options are kind of limited 
and this does press communities. We feel it quite a bit, 
particularly when people evacuate from one community to go to 
another community, and that community would like to get back to 
normal again. So it is something that, until a solution comes 
up, a ready solution comes up, for interim housing for large 
numbers of people, we will still be struggling with that.
    Senator Landrieu. In the Red Cross' model right now for the 
sheltering program, do you have a timeframe of 1 week or 2 
weeks or 3 days or 30 days? Your sheltering plan is, I know, 
geared toward immediate, not long term assistance.
    Mr. Mascelli. Right.
    Senator Landrieu. So what is your explanation today of 
that?
    Mr. Mascelli. We look at emergency shelters for about a 30-
day period. We think after that, for a whole variety of other 
reasons, that may not be a good environment for a lot of folks. 
So unless absolutely no other option is available, we would 
like the sheltering to be within a 30-day period.
    Senator Landrieu. Mr. Foresman, this is still what I would 
identify as one of dozens of gaps that I see across the board.
    Do you have any comments about any private sector solution 
that some of your members might be willing to put forward on 
this particular issue?
    Mr. Foresman. Well, Senator, I do. I have three points that 
I would make.
    First, I think that part of what you heard in Administrator 
Fugate's testimony is this whole idea about getting to defining 
the objective rather than defining the process. And I think 
that is really critical, and you said it in your opening 
statement, that part of it is about how do we link, because 
disaster housing is very much of a community issue. It is a 
State issue, it is a local issue.
    The Federal Government is a supporter in a lot of different 
ways, but it is about being able to partner those private 
sector entities with those local governments, not only in the 
context of crisis preparedness for the first 72 hours, but what 
are the innovative solutions, particularly doing large-scale 
housing operations. And I think FEMA is to be commended for 
having gotten the task force report out on housing, but we have 
got to address the broader issue of what are we going to do if, 
God forbid, we have 200,000 Americans that are homeless again? 
Because the solutions that we currently have on the table will 
not solve that for us. And as my colleague from the Red Cross 
has correctly pointed out, you cannot leave them in schools 
indefinitely.
    The second point, we have seen through a lot of our 
corporate sponsors, who have engaged in a very active way--
Sprint is a very big player in the ReadyCommunities' initiative 
Previstar. Previstar has provided some technology about being 
able to identify resources on a more ready scale, for instance, 
in a local community, not being dependent on the traditional 
government resource identification, but private sector tools 
that allow the private sector to put in their resources and 
make those available to local officials, to the nonprofit 
community, to a variety of others to be able to deal with it.
    The final comment is this, Senator. We have been wrestling 
with a model of disaster preparedness and recovery in this 
country for the past 25 years that, apparently, is not good for 
catastrophic events. What you heard in the last hour with 
Administrator Fugate's testimony and his vision, what you are 
hearing from the colleagues of 2-1-1 and from the Red Cross and 
the United Way is 21st Century thinking for disaster response 
and recovery. That is what the ReadyCommunities initiative is 
about. Let's not put it all on the back of government to try to 
be everything to everybody in the midst of a crisis. Let's 
truly take a community approach to a community problem to deal 
with a crisis event.
    Senator Landrieu. Thank you very much. And I want you to 
know that I agree 100 percent with what you said, but I also 
would stress that it is important for the Federal Government to 
be able to function, and to function efficiently and well. 
Because when it does not, the other parties, whether they are 
private sector or nonprofit or States or locals, have that much 
more of a difficult time.
    So you are correct. The focus of this hearing is, is the 
Nation ready, not just is FEMA ready or Homeland Security ready 
or the Federal Government ready. Is the Nation ready? But it is 
important for, at least, the Federal framework to be clear. And 
I think the vision that Administrator Fugate--and I happen to 
agree with you about the quality of people now in these 
positions. If any team could get it done, this is the team that 
can, with our support and, of course, a lot of other people's 
input.
    Mr. Mascelli, let me ask you this about the Red Cross. I 
know Congress just appropriated a significant amount of money 
for the Red Cross, which maybe is not unprecedented but it is 
not usual.
    Can you comment on the financial stability right now of 
your organization and what resources you have to address this 
pending hurricane season?
    Mr. Mascelli. Yes. We did receive an appropriation from the 
Federal Government. We are in the process of drawing funds 
through the Federal Emergency Management Agency, which is the 
executor of the grant.
    Senator Landrieu. And how much was that?
    Mr. Mascelli. One hundred million dollars total. And we are 
in the process of drawing from that reimbursement for expenses 
for the last hurricane season, and it continues until the end 
of this fiscal year, Federal fiscal year.
    In addition to that, we have taken a number of activities 
to basically come within budget, and looking at our finances. 
And part of that is we have restructured our organization 
fairly substantially, our national headquarters, and then with 
our chapter structure to reduce cost. And we are still in the 
middle of that at this point. In addition to that, an 
aggressive fundraising campaign to get out even in this time of 
economic instability, to be able to raise funds when we have 
these big disasters on an ongoing basis.
    So we believe that the combination of cutting back and 
restructuring the organization, reducing expenses, aggressive 
fundraising, and then the use of the appropriation, that we 
should balance our organization. We do project for our next 
fiscal year, which begins July 1, 2009, that we will have a 
balanced budget and we will proceed on that basis.
    Senator Landrieu. Thank you. What is your operating budget?
    Mr. Mascelli. I would have to get back to you. Counting the 
biomedical services, the blood services, it is a little over $3 
billion.
    Senator Landrieu. Ms. Durden, can you comment about the 
bill that we are moving through Congress? And, again, just hit 
what the two or three most important parts of that legislation 
are for supporting a national network, basically, of volunteers 
in large measure--it is led by staff but leveraged by 
volunteers--that would provide not only the operations, but the 
training necessary to provide that backup communications, so 
essential in disaster, really, of any size, for small 
disasters. And as Mr. Fugate said, if it is your roof that is 
gone, it is not a small problem for you.
    Tell us again about the specifics of what you see as the 
benefits of that legislation.
    Ms. Durden. The Calling for 2-1-1 Act, Senator, is 
critical. And I think the first point is that only 80 percent 
of our country has access to 2-1-1. There are 23 States in 
America that will have a hundred percent coverage as we are in 
Louisiana, but that is 25 States, counting--including Puerto 
Rico. I think there is a map that shows that.
    Senator Landrieu. If the map could be put up there. So the 
full coverage is in----
    Ms. Durden. The full coverage is in green.
    Senator Landrieu [continuing]. Green. And then the blue 
States are----
    Ms. Durden. Eighty percent is the dark blue.
    Senator Landrieu. OK. And then the red States are----
    Ms. Durden. The red States are where 2-1-1 is in 
development. And I think it is particularly concerning that 
there are gaps along our Gulf Coast, all the way up to 
Delaware, Long Island, New York; rural Georgia; North Carolina; 
and the Panhandle of Florida are some of those areas where 
there are gaps, and that is of significance.
    Another factor that this authorization bill would allow us 
is the telephony capacity to be connected. We are very blessed 
in Louisiana that there were donors that gave after Hurricane 
Katrina that enabled us to have Voice Over IP. And that gives 
us the opportunity, with the flipping of a switch, to move it 
around. And that is an absolutely incredible opportunity, but 
that is very rare in our country. And so, the capacity through 
technology is just critical.
    Senator Landrieu. If you could take that down, if you would 
just a moment, and leave the state issue----
    Ms. Durden. The map.
    Senator Landrieu [continuing]. The map.
    Am I seeing that New York has some serious gaps in that 
very highly urbanized area there? You are shaking your head; 
New York, New Jersey.
    Is that Pennsylvania?
    Ms. Durden. That is correct.
    Senator Landrieu. Pennsylvania. And then is that Kentucky?
    Ms. Durden. South Dakota, Arizona, and Wyoming.
    Senator Landrieu. OK, the western States. But on the 
eastern seaboard--and the reason that I raised this issue at 
this hearing in the beginning of this season is that the 
predictions that I have seen, or the feeling about this season, 
because the storms have been so intense in the Gulf, there is 
some sense that this is the East Coast's time. And I just need 
to reinforce that I know that people in the northeast have not 
had a storm in a long time, but there are some significant 
studies that show what will happen if they do, and it is not a 
pretty picture.
    In 1938, there was a major storm that hit Long Island, and 
you can just understand and think about what the population was 
then, but what it is today, 70 years plus later.
    Are you testifying that actually in that part of that 
highly urbanized area, that there virtually is no method 
outside of your 9-1-1 system which you would use to report an 
emergency? In terms of where you could go get a shelter, where 
you could get a voucher for an apartment, where you could get a 
meal for your child, that is basically the service that you 
provide?
    Ms. Durden. That is correct.
    Senator Landrieu. And you are absolutely right. I think it 
speaks to the urgency of this Calling for 2-1-1 Act that you 
are supporting. And I have to tell you that we know that was 
never more vividly described or illustrated than after 
September 11, 2001. The State of New York did not have it; the 
State of Connecticut did. And the documented difference in the 
response in that very urbanized region of our country was 
vivid, and 2-1-1 was very successful in their response in the 
state of Connecticut. And it is well documented, the concerns 
that occurred in New York following September 11, 2001.
    I just want to mention for the record, that in 1938, a 
Category 4 hurricane struck Long Island. It destroyed 75,000 
buildings and displaced thousands of residents.
    For these highly, densely populated areas, if you do not 
have a number to dial to get information, if your electricity 
is severely compromised, if you do not have the right 
sheltering plans, and if the only FEMA housing plan is still 
what it is today, FEMA trailers, we are in for a very serious 
situation here. And that is why this Subcommittee continues to 
work. And we will continue to work, but it is just a matter of 
time. And I do not know how much more I can do personally to 
impress upon people how real some of these gaps are and what 
catastrophe lies ahead should a Category 5 or 4, or a very 
powerful 3, slam into one of these very densely populated urban 
and low-lying areas along this coast.
    So having said that, we have just a short amount of time. 
If there is anything that you want to add--I have probably one 
or two more questions.
    Is there anything, Mr. Mascelli, you would like to add 
about how you are going to shelter several million people?
    Mr. Mascelli. Yes, ma'am. I would just like to just 
reinforce what you said about the major metropolitan areas and 
the level of capacity and preparedness in the area. It really--
these catastrophic disasters are an animal unto themselves, 
something that, fortunately, we have not experienced until 
recently.
    There is a great deal of work that needs to be done, 
particularly in those areas. We seem to do OK on the recurring 
disasters at a certain level, and those happen on a regular 
basis. But when we get to these catastrophic events, large 
populations affected, large dislocation, it affects the whole 
country, the economy of the country, the people, the psyche of 
the country, etc. So it is something that keeps us concerned on 
a consistent basis.
    Senator Landrieu. And just for comparison, not to really 
beat a dead horse here, but it has been something that as a 
Senator from Louisiana and the lead spokesperson for the Gulf 
Coast on this issue--I have to say that with the terrorist 
attack in New York, which was just a horrible and a totally 
different kind of event--that there were a confined number of 
buildings that were destroyed in a very confined space. And 
while it was a disaster that rocked the world, most of the 
people in New York and Washington, DC on that night went to 
sleep in their own homes. And there was a small percentage of 
people led by Rudy Giuliani and all the rest of a very small 
group that were focused on this particular thing. I mean, hands 
on, the whole world watched. But that night in New York and New 
Jersey and Connecticut, I mean, almost everyone was in their 
own bed.
    That is the difference between what happened there and what 
happened in Hurricane Katrina, where that night of the storm, 2 
million people were somewhere other than their own bedroom. And 
I do not think the country understands what is going to happen 
if this happens in New York or New Jersey or Connecticut or 
Pennsylvania, or Virginia; I mean, anyplace. And I think that 
people think that they are not going to be impacted by a 
Category 5 hurricane. I think they think that they have built 
buildings strong enough to withstand them, but I beg to differ.
    So I will continue to make my voice heard to the President 
and to the leadership, and hope that we get through this storm 
season without facing a Category 3, 4, or 5 in a major 
metropolitan area, not that New Orleans is not a major 
metropolitan area or Galveston or Houston. But a northeast 
metropolitan area has a lot more density than we do along the 
Gulf Coast. Because the numbers are just staggering.
    And I do not know, Janet, if you want to----
    Ms. Durden. I do want to, first of all, thank you for your 
sense of urgency. And I want to give you an update regarding 
this critical issue of the urban parts of the northeast. New 
York City has excellent coverage of 2-1-1, but because of the 
economic condition of many of our States, specifically New York 
State has had to cut their funding of 2-1-1. So you are 
absolutely on point as you talk about that urgency in those 
metropolitan areas.
    The other comment I would make--and you know this so 
vividly. But while you did an outstanding chart that shows the 
73 percent growth in call volume in a 2-year period, I think 
the public needs to understand those 14 million are people. And 
during Hurricane Katrina, those were people whose lives were 
being saved by the volunteers and the staff on the phone of 2-
1-1. We did rooftop rescues. We did connecting people to the 
appropriate governmental entities. And the most vivid example 
happened with someone you know quite well. Joe Thomas' wife, 
Robin, was serving as a volunteer, and took a call from a man 
who went back into his home and found his mother's body. There 
was no one for him to call but 2-1-1.
    I think that your urgency to continue this funding and this 
legislation speaks to the need of American people, and I want 
to thank you for that.
    Senator Landrieu. Thank you very much. Any closing 
comments?
    Mr. Foresman. Senator, I just want to make--also add the 
thanks to it. Having spent a few years doing this, I have 
gotten pretty good at realizing that there has not been a lot 
of advocacy on the Hill, consistent advocacy, on the issues of 
disaster response and recovery. And to your point--and one of 
the things that we have seen with the ReadyCommunities 
initiative is----
    I know you are focused on hurricanes. That is your 
constituency, that is your geography, that is one of the 
biggest threats that you have faced. But we have, over the 
course of the last 60 days, had a little bit of a shake in the 
Los Angeles region. We have had a scare from pandemic. And I 
think the one recognition and the one thing that I very 
strongly encourage you to do is let's make this about the need 
for better capabilities to deal with catastrophic events, 
particularly housing, irrespective of what the cause is. 
Because as the Senator from Illinois pointed out, he is more 
concerned about tornados or dorados, or whatever we are calling 
them, or microbursts, these days. And we have got to make sure 
that we are resonating the argument with the people who are 
hearing them.
    Senator Landrieu. Well, thank you. And I will tell you what 
I am going to do because I do want to support the point that 
you just made. I am going to call a hearing for earthquakes 
particularly. And I want to show a film in this Subcommittee of 
what is going to happen when an earthquake, a major earthquake, 
hits not just California but also Memphis, which is vulnerable. 
And I am going to use the risk assessment that has been done by 
our risk managers to show the likely disasters, based on their 
scientific information.
    This is not just what Senator Landrieu thinks might happen. 
This is what our government and scientists believe is probable 
to happen. And what this Subcommittee is going to do is to try 
continuously to show those probabilities and the gaps in 
response capacity to what we are predicting is going to happen. 
And as we work, I realize there are other priorities of the 
government. This is not the only priority of the government. 
But having represented people who live and survive through a 
catastrophic disaster, it is hard to tell them that there is 
another priority.
    That is what is going to happen. I mean, for the 2 or 3 or 
4 million, or 5 million, or 20 million people that are caught 
up in it at the time it happens, it is very hard to tell them 
that there is a higher priority than giving them a meal, a 
shelter, a potential job, a place to return. And it becomes a 
very significant issue for any country, whether it is China or 
India or other countries that we have seen go through some 
horrific catastrophic disasters. And it is just a matter of 
time until some of these predictions happen. And I would like 
to say we are ready, but I am telling you we are not, in any 
number of areas that we have heard about today.
    So thank you all. I think we will bring the hearing to a 
close. The record will remain open for 15 days, and we urge 
anyone, either here or listening, to submit any information 
that will be helpful to our Subcommittee, and we thank you very 
much. Hearing is adjourned.
    [Whereupon, at 3:55 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>

</pre></body></html>
